<html>
<title> - NEXT STEPS ON EGYPT POLICY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                       NEXT STEPS ON EGYPT POLICY
=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2013

                               __________

                           Serial No. 113-106

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
85-312                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable A. Elizabeth Jones, Acting Assistant Secretary, 
  Bureau of Near East Affairs, U.S. Department of State..........     6
The Honorable Derek Chollet, Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense.....    15
Ms. Alina Romanowski, Deputy Assistant Administrator, Bureau for 
  the Middle East, U.S. Agency for International Development.....    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable A. Elizabeth Jones: Prepared statement.............     9
The Honorable Derek Chollet: Prepared statement..................    17
Ms. Alina Romanowski: Prepared statement.........................    23

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
Written responses from the Honorable A. Elizabeth Jones to 
  questions submitted for the record by the Honorable Edward R. 
  Royce, a Representative in Congress from the State of 
  California, and chairman, Committee on Foreign Affairs.........    61
Questions submitted for the record to the Honorable A. Elizabeth 
  Jones by:
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    73
  The Honorable Luke Messer, a Representative in Congress from 
    the State of Indiana.........................................    75


                       NEXT STEPS ON EGYPT POLICY

                              ----------                              


                       TUESDAY, OCTOBER 29, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing for the committee will come to 
order.
    Next steps on Egypt policy is what we're looking at today 
and we're looking at a very challenging U.S.-Egypt 
relationship.
    Since President Mubarak's fall Egypt has been in political, 
economic and social turmoil. This has seriously strained and 
some have suggested imperiled our very important relationship 
with Egypt. It has certainly put our considerable interests in 
the region at risk.
    Like many Arab countries, Egypt is struggling to overcome a 
lack of democratic traditions. While the Muslim Brotherhood-led 
government was democratically elected, it governed 
autocratically.
    Yet the U.S. administration was perceived in the region as 
passive as President Mohamed Morsi grabbed power, squashing 
individual rights, sidelining the courts and declaring himself 
above the law.
    Coptic Christians in particular were left vulnerable, 
facing frequent deadly attacks. Today, it is critical the U.S. 
use its influence to help guide the new government toward a 
democratic constitution that respects individual liberties 
including those of women and minorities.
    Maybe enough Egyptians have realized that their proud and 
historic country could become violent and ungovernable if they 
refuse to move ahead in a peaceful and positive way.
    This will require that the government reach out to 
responsible opposition members instead of vilifying them with a 
broad brush.
    But it also demands a determined and sustained campaign 
against those Brotherhood activists who are deeply committed to 
violence and tyranny. The fact that these extremists are 
actively hostile to American interests binds us with the 
Egyptian Government.
    That is why I support a continued and robust military 
relationship with Egypt and today we'll hear what the 
administration has planned in this area.
    A too little noted reality is that Egypt has little chance 
of becoming a stable democracy given its destructive economic 
policies. Those policies have to change.
    The revolt against Mubarak was largely inspired by economic 
grievances. For those that remember, they had lines at the 
time. Renowned Peruvian economist Hernando de Soto testified to 
this committee earlier this year that Egyptian entrepreneurship 
suffers from a systemic lack of property rights.
    If you've got to pay 22 bribes to open a pharmacy, if you 
can't get--exchange title to property, you've got a problem. 
Unfortunately, the current government is perpetuating the 
stagnant and corrupt Mubarak economic model complete with price 
controls on market vendors.
    It was market vendors who sparked revolts throughout the 
region in 2011 through self-immolation. So this is very 
problematic in terms of the failure to make the right economic 
reforms there.
    Our decades of economic aid to Egypt in the tens of 
billions propped up an economy that produced great unemployment 
and produced popular discontent.
    Development aid without fundamental economic reforms in 
Egypt is sure to be wasted. To date, the administration has had 
consultations--and some of those are pretty meaningless--with 
Congress on its aid plans.
    I've sat through some of those meetings and I have to tell 
you the point has to be made we've got to put together a plan 
that will address these issues of economic reform in that 
society. It has to change.
    Of course, Egypt is a crisis decades in the making. We 
should learn from our mistakes and, more importantly, Egyptians 
must learn from their mistakes.
    It is they who will determine their nation's future, not 
us, and hopefully they'll reject the form of extremism that 
will only lead to the rights of women being eviscerated and 
minorities under attack in a gutted judicial system.
    As one Egyptian recently told The Economist the Muslim 
Brotherhood was implementing a plan to burn down Egypt and 
destroy its foundation.
    While we would like a democratic partner for our many 
security interests in the region, we need a partner. We should 
push and pull with what influence we have, and I'll now turn to 
the ranking member for his opening remarks.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Thank you for calling this important hearing. I listened to 
your statement and I agree with everything you said.
    I want to thank our distinguished witnesses for joining us 
today. You all have very difficult jobs and I appreciate your 
service.
    In managing America's foreign policy there are times when 
our ideals and our security interests don't conveniently align. 
The situation in Egypt today is case in point.
    For the time being, the Egyptian military's recent removal 
of President Morsi has replaced one autocratic government with 
another. Over the last 3 months more than 1,000 people have 
been killed in the crack down on pro-Morsi protesters.
    Freedom of the press remains stifled, the economy is 
rattled by instability and religious minorities don't feel safe 
in their own communities. Yet the government the military 
replaced was no paragon of virtue.
    It is true that President Morsi won a reasonably free and 
fair democratic election with 52 percent of the vote. But at 
the time this rushed election took place the Muslim Brotherhood 
was the only organized political institution in the country.
    Morsi famously promised to rule for all Egyptians but upon 
taking office he failed to uphold basic democratic values and 
treated his election victory as a license to rule in any way he 
saw fit.
    President Morsi issued decrees that sacked the prosecutor 
general, immunized presidential decisions from judicial review 
and shielded the Islamic-dominated Shura Council and the 
constituent assembly from dissolution.
    He forced through a referendum on a new constitution that 
favored Islamists in conservative positions. His government 
drafted an NGO law that essentially placed civil society under 
state control.
    His judiciary raised bogus cases against journalists and 
activists. His economic ineptitude kept investors and tourists 
away and drove the Egyptian economy to the brink of collapse, 
and he took no meaningful steps to protect minorities or to 
institutionalize respect for human rights in Egypt's Government 
or society.
    By the time the Egyptian military took the extraordinary 
step of removing Egypt's first democratically elected President 
from power, Morsi was the President in name only.
    He had already brought his country to the brink of collapse 
and was no longer a legitimate ruler in the eyes of a majority 
of the Egyptian people. That was obvious.
    Indeed, the future that Morsi's Muslim Brotherhood had in 
mind for Egypt was one that would have been devastating to most 
Egyptians, to American interests and the interests of our 
allies in the region.
    It is important to recognize that the Brotherhood's early 
doctrines provided the intellectual and theological 
underpinnings for numerous militant Sunni Islamist groups 
including al-Qaeda and Hamas.
    And while the Brotherhood officially renounced violence and 
terrorism in the 1970s, they have continued to operate in Egypt 
as a shadow state hoping to one day institutionalize Sharia law 
and build an Islamic caliphate through the region.
    So in the wake of Egypt's most recent leadership transition 
we must ask ourselves a simple question. Are Egyptians and the 
United States better off with a Muslim Brotherhood-led 
government that was taking Egypt in a very dangerous and 
undemocratic direction or with a military-backed government 
that is slowly moving to a reboot of Egyptian democracy?
    I think the answer is clear. Immediately after the 
transition in July, I supported the temporary halt in F-16 
deliveries to Egypt because I thought it sent a simple message 
that the U.S. was concerned about Egypt's instability and 
direction.
    But today I do not believe that suspending the military aid 
will make the Egyptian Government more democratic or make it 
easier for the United States to influence its behavior in the 
future.
    In fact, I think it's more than likely to have the opposite 
effect and I'm afraid it could jeopardize the close U.S.-Egypt 
military cooperation that we've worked so hard to build over 
the last several decades.
    That military cooperation is important. We've spent 
billions of dollars. We've cemented relationships. Let's use 
them. Let's not destroy them. Let's use them.
    This cooperation supports critical U.S. national security 
interests in the Middle East, North Africa and beyond. Our 
close relationship means that U.S. Navy ships are granted 
special access to the Suez Canal.
    U.S. military aircraft are allowed to overtly--I'm sorry, 
are allowed to overfly Egyptian air space, and that is 
important in what we're doing in Afghanistan.
    Our military and intelligence services cooperate on 
numerous regional security issues. The Egyptian military 
strives to keep the Sinai safe and protect the Egyptian-Israeli 
border, and we cannot forget that Egypt fought side by side 
with us to expel Iraq from Kuwait in the first Gulf War.
    It's clear that the Egyptian military has made some serious 
mistakes in managing the ongoing transition. I condemn the 
violence used to break up opposition sit-ins last August and 
urge the military to refrain from using similar tactics in the 
future.
    I also hope they will support the creation of an inclusive 
government that reflects the interests of all Egyptians.
    But if I were given the choice between the military and the 
Brotherhood, I'd take the military every time, understanding 
that this is really a choice for the Egyptian people.
    Finally, with regard to economic assistance, I wanted to 
take a moment to express my strong support for funding the 
U.S.-Egypt Enterprise Fund for which the administration has 
recently requested approval from the Congress.
    This fund is an excellent example of how we can leverage 
relatively modest amounts of funding to encourage significant 
private sector investments into Egypt's economy.
    It's my hope that we can look past our disagreements on 
other parts of the Egypt aid package and quickly approve 
funding for this program.
    During this fragile period we should be rebuilding 
partnerships in Egypt that enhance our bilateral relationship 
and support regional stability, and I hope the administration 
will reconsider its decision to suspend most military aid to 
Egypt.
    Once again, Mr. Chairman, I'd like to thank you for holding 
this hearing and I look forward to hearing the testimony of our 
witnesses.
    Chairman Royce. Thank you, Mr. Engel.
    We'll go now to Ileana Ros-Lehtinen, chairman emeritus of 
this committee and chairman of the Subcommittee on Middle East 
and North Africa, for 2 minutes.
    Ms. Ros-Lehtinen. Thanks to Chairman Royce and Ranking 
Member Engel for holding this important hearing because it has 
not been easy due to the administration's uneasiness in 
addressing the American people's concerns about the dire 
situation in Egypt and whatever the administration's policy 
toward Egypt might be today.
    It is ever changing. By failing to act decisively before, 
during and after the Morsi era, we have lost so much 
credibility and leverage in Egypt.
    For not disavowing Morsi and the Muslim Brotherhood from 
the start, the moderate, secular and religious minorities in 
Egypt felt betrayed and believed that the international 
community was supporting terrorists at their expense.
    Morsi may have won an election but we all know that 
elections alone do not make a democracy. During his time, Morsi 
failed to live up to the principles of a democratic society.
    He oversaw a crack down on civil society, free speech and 
human rights. He imprisoned--he imposed burdensome restrictions 
on the media and imprisoned a high number of journalists.
    The uptick in confrontations in Egypt is a stark reminder 
that the transition to a new democracy is not an easy task but 
that is no excuse for anyone to resort to violence.
    The Obama administration must act responsibly and 
prioritize our foreign policy objectives in Egypt. It's 
disappointing that the Obama administration recently suspended 
some aid to Egypt without consulting with Congress.
    We must use whatever leverage in our foreign assistance 
program to persuade the interim Egyptian Government to act 
responsibly, to return to the path of democracy and to protect 
the rights of all Egyptians.
    The balance of Egypt and the stability of the Middle East 
may depend on it.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Ms. Ros-Lehtinen.
    The ranking member of the Subcommittee on Middle East and 
North Africa is Ted Deutch of Florida. We'll go to him for 2 
minutes.
    Mr. Deutch. Thank you, Mr. Chairman, for holding such an 
important hearing.
    I have many questions and concerns about the decision to 
suspend some of our assistance to Egypt.
    There is no denying that the violence and the deaths in the 
months following the ouster of Mohamed Morsi has been 
deplorable and it's been tragic.
    Dictatorial violence runs counter to the Egyptian people's 
desire to establish a genuine democracy, and as we look back we 
must remember that on June 30th a vast and historic gathering 
of millions of Egyptians took to the streets to demand the 
removal of Morsi and for a rebirth of true democracy in Egypt.
    It's true that the military intervened at the request of 
the protesters only after Morsi made clear that he was not 
stepping down. The tactics used to transition to a new 
government have been deadly authoritarian and clearly 
regrettable.
    But when General Sisi announced Morsi's removal he did so 
with a wide range of Egyptian civil society behind him 
including the Tamarod movement, the Coptic Pope and the 
Islamist Nour Party.
    Even now, General Sisi enjoys popular legitimacy among the 
Egyptian people. Our relationship with Egypt is of the utmost 
strategic importance to our nation and to regional security.
    Egypt provides us with special access to the Suez Canal, 
overflights in Egyptian air space and, most importantly, as a 
peace treaty with Israel that is vital to regional security, 
especially today as Egypt combats terror in the Sinai.
    Now, we all understand that our aid to the military might 
be better refocused to more shared security objectives such as 
counterterrorism and security in the Sinai.
    However, I have concerns about--both with the manner in 
which the suspension was communicated to Congress and to Egypt, 
and I worry that the results of these changes may mean that the 
United States may have less leverage to lead in Egypt.
    Just yesterday the UAE announced an additional $2.9 billion 
in aid for the Egyptian economy. Given the vast resources the 
Gulf States have provided to the interim government, we must 
act in a way to preserve our influence.
    Part of that is through assistance. Part of that is 
continuing to advocate for democracy. And as Egypt is currently 
working on a political roadmap that will include a new 
constitution and elections, now is the time to increase our 
leverage to ensure that human rights and inclusive democracy 
are cornerstones of the new government that's in Egypt's best 
interest but, most importantly, it's in our own best interest.
    And I appreciate the opportunity, Mr. Chairman. I yield 
back.
    Chairman Royce. Thank you, Mr. Deutch.
    This morning we're joined by representatives from the 
Department of State, Department of Defense, USAID.
    Ambassador Jones is Acting Assistant Secretary of State for 
the Near East and she previously served as deputy special 
representative for Afghanistan and Pakistan. She was the U.S. 
Ambassador to Kazakhstan back in '95 to '98.
    Assistant Secretary of Defense for international security 
affairs, Derek Chollet is a principal advisor to the Secretary 
of Defense on international security strategy and policy 
issues.
    And we have Ms. Alina Romanowski, who serves as Deputy 
Assistant Administrator for the Middle East bureau of USAID. 
She is responsible for oversight of assistance across the 
region.
    Without objection, the witnesses' full statements will be 
put in the record. Members here may have 5 legislative days to 
submit any statements or questions that they might have or 
extraneous material for the record.
    We're going to ask our witnesses to summarize their 
statements today and we'll begin with Ambassador Jones.

STATEMENT OF THE HONORABLE A. ELIZABETH JONES, ACTING ASSISTANT 
  SECRETARY, BUREAU OF NEAR EAST AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Jones. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, thank you very much for 
inviting us to discuss next steps on U.S. policy toward Egypt 
this morning.
    This is a summary of my full statement. Egypt and the U.S.-
Egypt relationship matter to us. Egypt is a vital partner.
    Our long-standing partnership is predicated on shared 
interests--promoting a stable and prosperous Egypt, securing 
regional peace and maintaining peace with Israel, and 
countering extremism and terrorism throughout the region.
    This partnership has brought the United States significant 
benefits--as you have each mentioned, easy transit through the 
Suez Canal, military overflights that facilitate our activities 
and the counterterrorism and counterproliferation gains that 
come from Egypt's efforts to control its borders with Gaza and 
security-challenged countries like Libya.
    There is no doubt that a reliable Egyptian partner is in 
U.S. strategic interests. We firmly believe that the best, most 
reliable Egyptian partner is a democratic Egypt.
    A sustainable, inclusive, non-violent transition to a 
democratically-elected government will give Egypt the best 
opportunity to succeed, and Egypt's success can be the region's 
success.
    Since the January 2011 revolution, Egypt's history has 
centered on what Egyptians want for democracy, political and 
economic reform and how their government can meet their 
aspirations.
    Following the revolution, the Muslim Brotherhood's Freedom 
and Justice Party won the parliamentary elections and in 2012 
President Morsi was voted into power in an election viewed as 
free and fair.
    However, Mr. Morsi proved unwilling or unable to govern 
inclusively, alienating many Egyptians. Responding to the 
desires of millions of Egyptians who believed the revolution 
had taken a wrong turn and who sought a return to security and 
stability after years of unrest, the interim government 
replaced the Morsi government.
    But the interim government has also made decisions 
inconsistent with inclusive democracy. We were troubled by the 
July 3 events and the violence of mid-August.
    The decision to remove Morsi, excessive force used against 
protesters in August, restrictions on the press, civil society 
and opposition parties, the continued detention of many members 
of the opposition, and extension of the state of emergency have 
been troubling.
    We have also consistently and strongly condemned the 
heinous violence and acts of terror against Coptic churches and 
the Coptic community.
    At the same time, we have condemned the continuing attacks 
on the security forces in the Sinai and elsewhere in Egypt.
    After the events of mid-August, the President said we could 
not continue business as usual with respect to our assistance.
    That decision--after careful review we recently announced a 
recalibration of this assistance. That decision ensures that 
assistance is directed toward core U.S. interest including 
helping Egypt secure its borders in the Sinai, preventing the 
flow of weapons into Gaza that threaten Israel and countering 
terrorists seeking to attack U.S. and Egyptian interests.
    We will continue military training and education as well as 
the sustainment of certain U.S.-origin military systems. 
However, we are holding the delivery of several major weapons 
systems--the F-16s, M1A1 tank kits, Harpoon missiles and Apache 
helicopters.
    We will work to provide economic support that directly 
benefits the Egyptian people including in the areas of health 
and private sector development but are not moving forward with 
any further cash transfers to the government.
    We will review these decisions informed by credible 
progress on the interim government's political roadmap toward a 
sustainable, inclusive and peaceful transition to democracy.
    This recalibration reflects our effort to advance U.S. core 
interests in Egypt and the region while impressing upon the 
Egyptian leadership the importance of making progress toward a 
democratic transition--progress we believe the Egyptian people 
want.
    Our decision is designed to use our assistance to encourage 
such a transition and a strong private sector-led economy that 
can reinforce political stability.
    We welcome the interim government's commitment to a 
political roadmap to restore a democratically-elected civilian 
government.
    We continue to urge the government to be inclusive, respect 
the rights of all Egyptians and respect the rule of law, 
freedom of expression and peaceful assembly, the role of civil 
society and religious freedom.
    Beyond issues related to the roadmap, the United States has 
stayed firm to its principles and interests of advancing civil 
society engagement by encouraging the passage of an NGO law 
that conforms to international standards and Egypt's own 
international commitments.
    We have registered concerns over the June trial verdict 
against NGO workers and have urged redress. We have also raised 
our concerns about the state of emergency which the government 
recently announced would not be extended when it expires on 
November 14.
    On the economy, we are encouraging the interim government 
to maintain economic stability, help restore growth and 
investment and create jobs.
    Egypt has an enormous opportunity now to pursue the 
aspirations of the 2011 revolution and to provide for the needs 
of the Egyptian people. The United States wants to help.
    To do that and to actively advance our core interests in 
Egypt and the region, we need to have the ability to continue 
U.S. assistance to Egypt.
    Mr. Chairman, Ranking Member Engel and distinguished 
members of this committee, we want to work closely with 
Congress to obtain the flexibility needed to continue our 
assistance relationship with Egypt consistent with the law and 
our national interest and to encourage progress on Egypt's 
democratic transition.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Jones follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador.
    We'll go now to Secretary Chollet.

 STATEMENT OF THE HONORABLE DEREK CHOLLET, ASSISTANT SECRETARY 
OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Chollet. Mr. Chairman, Ranking Member Engel and other 
distinguished members of the committee, thank you for the 
opportunity to discuss the U.S. defense relationship with 
Egypt.
    The U.S.-Egypt military relationship is one of our most 
significant and enduring strategic defense relationships in the 
Middle East. It is also a two-way street.
    The Egyptian military is able to use our assistance to 
purchase U.S. military equipment and also receive the benefits 
of training with the world's greatest military power.
    But as has been mentioned, the U.S. military is able to 
respond to contingencies and conduct operations throughout the 
region because of expeditious overflight rights and Suez Canal 
transits.
    This can be critical to mission success. As just one of 
many examples, in August 2013 just a few months ago, the USS 
San Antonio was approved to transit the Suez Canal within 24 
hours of the request, quickly positioning it to respond to 
potential unrest in the region.
    Without Egypt's expedited approval, we would have had to 
wait the requisite 23 days for approval or reprogram other 
fleet assets. Strong U.S.-Egypt military relations are also 
central to our core security interests in the Middle East.
    Our partnership with the Egyptian military assist in 
maintaining the Camp David peace treaty with Israel, securing 
the Sinai, countering transnational terrorist threats and 
securing global commerce by providing safe transit of ships 
through the Suez Canal.
    Yet, as President Obama, Secretary Hagel and Secretary 
Kerry have made clear, we have serious concerns with the events 
that transpired in July and August.
    Further, as President Obama has said, some decisions made 
by the interim government have been inconsistent with inclusive 
democracy.
    I can assure you that Secretary Hagel has expressed these 
concerns clearly and directly in as many phone calls with 
General al-Sisi over the past several months, and just last 
month during my own visit to Cairo I discussed these concerns 
with General al-Sisi and other senior military officials.
    The administration's policy toward Egypt therefore seeks to 
achieve a delicate balance of continuing our strong military-
to-military relationship while at the same time recognizing 
that we can't, as President Obama has described it, continue 
business as usual.
    We are therefore moving forward with some aspects of our 
assistance and withholding others. We will continue assistance 
for border and maritime security, Sinai security and 
counterterrorism, all of which advance the goals of our 
military relationship.
    We will also continue to provide sustainment for existing 
weapons systems and funding for military education and 
training. This assistance, totalling hundreds of millions of 
dollars, is essential to advancing our core national security 
interests in the region.
    But we will hold deliveries of large-scale weapons systems 
including F-16s, M1A1 tank kits, Apache helicopters and Harpoon 
missiles. Delivery of these systems could resume pending 
Egypt's progress toward an inclusive democratically-elected 
civilian government.
    Additionally, consistent with our many--the many 
conversations we have had with our Egyptian counterparts over 
the past several years, we will work with them to determine 
whether to sustain certain legacy systems that might otherwise 
be retired.
    Let me be clear. The United States considers Egypt to be a 
critical partner, one that has helped advance U.S. national 
security interests for over three decades.
    We want to continue a strong military-to-military 
relationship that preserves our strategic interests and we want 
Egypt to develop a military that is prepared to meet the 
threats of the 21st century.
    We also want to see Egypt succeed in moving toward an 
inclusive democratically-elected civilian government. This is 
in our national interest, it is in Egypt's national interests 
and it is in the security interests of the broader Middle East.
    Mr. Chairman, the Congress is a critical partner in this 
process. Because of the events that unfolded in Egypt in July 
and August, it is imperative that we work with the Congress to 
move forward together.
    The Department of Defense looks forward to continuing these 
discussions with the Congress and our Egyptian partners and I 
look forward to your questions this morning.
    Thank you very much.
    [The prepared statement of Mr. Chollet follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you.
    Alina, go ahead.

      STATEMENT OF MS. ALINA ROMANOWSKI, DEPUTY ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Romanowski. Chairman Royce, Ranking Member Engel and 
distinguished members of the committee, thank you for the 
opportunity today to discuss with you the impact of the 
administration's recently announced Egypt policy on USAID-
managed assistance and the efforts we are making to continue to 
support programs that directly benefit the Egyptian people.
    USAID's assistance program in Egypt is a cornerstone of our 
bilateral relationship and we are proud of the accomplishments 
we have made over the last 30 years.
    For example, a recently completed early grade reading 
program improved fluency by 91 percent in pilot schools and the 
scaled up project reached 1.4 million students in all grade one 
classrooms across Egypt.
    Our assistance has awarded 185,000 scholarships to girls 
and built nearly a hundred schools serving over 44,000 students 
in under served communities throughout the country.
    Since 2011, USAID has helped start 58 innovative Egyptian 
companies, one-third of which are owned by women. We have 
assisted thousands of women in rural governorates to exercise 
their political and economic rights included helping 48,000 
women receive government IDs.
    We're also installing new water pipes in upper Egypt, 
employing hundreds of Egyptians and supplying water service for 
more than 600,000 people in the five poorest governorates. 
These are just a few examples of the impact of our program.
    However, the events of July 3rd and the violence of mid-
August are deeply troubling to us and as the President said we 
could not continue business as usual.
    At the same time, we want to make sure that we continue to 
do everything we can to promote a sustainable, inclusive and 
nonviolent transition to democracy.
    Therefore, moving forward we want to work with you to 
continue our valuable economic assistance that directly 
benefits the Egyptian people. We will pursue our democracy and 
governance programs, continue to strengthen civil society and 
encourage private sector growth.
    We will also continue programs that improve health 
outcomes, increase educational opportunities, stimulate private 
sector growth and create jobs.
    These programs demonstrate to the Egyptian people that the 
United States will continue to support their aspiration for 
democratic governance and economic opportunities. Consistent 
with current U.S. law and policy, programs that do not directly 
benefit the government will move forward unimpeded.
    These programs benefit a wide range of Egyptian society 
including youth, civil society and the private sector. For 
example, we recently notified an additional $60 million to 
further capitalize the Egyptian-American Enterprise Fund, which 
will promote much needed development of the private sector in 
Egypt, expand access to credit and create opportunities for 
Egyptian small and medium enterprises.
    Relying on available legislative authorities, we will 
continue to provide support for projects that work with the 
government in areas of health and democracy.
    For example, USAID will support planned electoral events 
through the international election observation and voter 
education.
    We are not moving forward with the $260 million cash 
transfer that was to be provided directly to the Government of 
Egypt and the $300 million in loan guarantees that were under 
consideration for Fiscal Year 2014.
    We will work closely with the Congress to ensure that we 
have the authorities necessary to provide economic assistance 
that advances U.S. objectives in Egypt including fostering 
educational opportunities for Egyptian students.
    In the meantime, where we do not have these authorities 
certain projects that provide assistance to the Government of 
Egypt are being wound up.
    This includes our basic and higher education projects that 
work with public institution or employees and our work 
providing technical assistance to government ministries and 
authorities.
    We are working with our implementing partners to develop 
wind-up plans for these projects which will allow for the 
completion of certain project components.
    We also will not be able to initiate some planned 
activities in sectors that constitute assistance to the 
government like education and infrastructure, and we are 
considering ways that we can repurpose these funds to more 
directly support the Egyptian people such as providing 
scholarships to private universities or for study in the United 
States.
    Mr. Chairman, Ranking Member Engel and distinguished 
members of this committee, we want to work closely with you to 
continue providing assistance to the Egyptian people and build 
upon the valuable support we have provided to Egypt's 
development over the last three decades.
    Such assistance is central to our objective in seeing an 
Egypt that is making progress on its roadmap and the progress 
toward a sustainable, inclusive and nonviolent transition to 
democracy.
    I appreciate the opportunity to appear before you today and 
I look forward to answering your questions.
    Thank you.
    [The prepared statement of Ms. Romanowski follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Ms. Romanowski, we thank you.
    Let me ask you a question because you see the press reports 
on the Egyptian Government's move in the wrong direction with 
respect to economic reform--harassment of street vendors, you 
know, the price controls on the street vendors, undoing the 
privatizations undertaken by the Morsi government which was no 
friend to start with for economic liberalization.
    But you just don't see anything to try to take the informal 
sector of the economy and make it formal and I suspect that all 
our efforts including Enterprise Funds are going to be wasted 
if it goes to defending the economic status quo in Egypt.
    If we don't undertake the kind of transformation of the 
economy that will allow entrepreneurs, you know, the small 
entrepreneur, the vendor, to operate, to start businesses--if 
they don't have access to property rights, I don't--I don't 
think you're going to have anything except in Egypt that works 
for a few Egyptians.
    And I guess the question is why should we give economic aid 
in that kind of an environment. What are we doing?
    Ms. Romanowski. Chair--Mr. Chairman, we have spent a good 
part of the last 2 years in reorienting much of our economic 
assistance to ensure that we have an opportunity to get to the 
private sector and to get to small and medium entrepreneurs.
    It is an area where we continue to believe that if you 
engage and demonstrate some best practices and some ways of 
supporting the small and medium entrepreneurs that we 
ultimately will be successful.
    Chairman Royce. I think ultimately what you do is--if you 
end up just throwing the money into the Enterprise Funds and 
not undertaking or walking the Egyptians through the reforms 
that will allow people to start businesses, you know, if the 
fundamentals aren't there that money is not going to end up 
transferring people into the formal economy.
    Whereas if you would do--if you do what we've long known 
needs to be done it might not be easy--it might mean you'd 
really have to lean on the powers in Egypt, but I think you 
could make a lot of progress.
    We had a hearing here where we had Madeleine Albright. We 
had Hernando de Soto. We went through a lot of these issues, 
and instead we're right back to the Enterprise Fund concept of 
how you're going to dole out money.
    I'm very disappointed with the lack of more--of a more 
fundamental approach at looking how to reform the economy 
because I think it's something that we could really do in a 
bipartisan way and help Egypt.
    But I'm going to go to Mr. Chollet and ask him--you 
mentioned our shared interest in counterterrorism. What is the 
administration doing to support the Egyptian military's effort 
in the Sinai because that's really slipped out of government 
control ever since Mubarak's ouster.
    How does the administration's suspension of military aid 
impact the Egyptian military's ability to secure the peninsula?
    Mr. Chollet. Mr. Chairman, thanks for the question.
    The Sinai has been something we've talked to the Egyptians 
about over the past several years and a year ago if we were 
having this hearing we would be talking about frustrations with 
their lack of action in Sinai, and over the past several months 
they have been taking significant action in Sinai, some of the 
most significant operations that we've seen in many, many years 
in terms of dealing with the extremist threat. So that's a good 
thing.
    Chairman Royce. So you're working with the Egyptians to 
better tailor their efforts to counterterrorism in Sinai?
    Mr. Chollet. Well, we encourage them. These are their own 
operations. We're not working in cooperation with them in an 
operational way at all.
    But we stay in very close touch with them as do the 
Israelis on their operations in the Sinai because there are 
certain treaty restrictions that they have about the kinds of 
capabilities they can deploy to the peninsula under the Camp 
David treaty.
    The assistance that we are holding--the M1A1 tank kits, the 
F-16s, the Harpoon missiles, even the Apaches--is not affecting 
their operational effectiveness in the Sinai at all.
    Those operations have been ongoing for several months and 
they have sufficient capability to take care of that problem.
    We do encourage them to do more and we stay in very close 
touch with them on their operations and in terms of any 
particular needs that they have.
    Chairman Royce. Thank you.
    Let me quickly go to Ambassador Jones for my last question. 
It was the concern about the Coptic Christian community that I 
raised in upper Egypt especially where many of Egypt's 
Islamists have been active.
    You've got close to a hundred churches that have been 
burned there over the summer and across Egypt you have a lot of 
Christian-owned homes, businesses that have been vandalized or 
destroyed.
    How can we do more to ensure that that minority, the Coptic 
minority and other minorities, are protected in Egypt?
    Ambassador Jones. Mr. Chairman, thank you for your 
question.
    It's a very important issue for the United States. It's an 
important--it's an important element of our constant 
conversation with the Egyptian--with the Egyptian Government.
    We have strongly condemned the attacks on Coptic churches 
and on Copts and we have called on the Egyptian Government to 
bring those responsible for these--what we consider heinous 
acts of terror to bring them to justice.
    The Egyptian Government has also condemned these attacks. 
But on your--to answer your broader question, this--the 
protection of minorities--Christian minorities as well as any 
other minority--is a very important element of our ongoing 
conversation with the Egyptian leadership about what a 
democracy actually involves.
    It does involve, as far as we're concerned and this is 
something that we advocate strongly to the Egyptian Government, 
it involves protection of minorities as well as protections--
the whole list of protections that we've already talked about.
    This is something that we will continue to have a spirited 
conversation with the Egyptian leadership about to ensure that 
they recognize the importance of protecting their Christian 
minorities as well as assuring the rights of women, protection 
of the rule of law, protection of other human rights, 
protection of the press, protection of assembly.
    Chairman Royce. Thanks, Ambassador.
    We'll go to Mr. Eliot Engel of New York.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    I want to start off by again expressing my disapproval of 
the cutting off of aid to Egypt. I really think it's like 
cutting off your nose to spite your face. I really do.
    I know the administration is trying to thread a needle and 
trying to say well, you know, we're going to keep some aid 
going because we really don't want to hurt our relationship but 
we're going to withhold the tanks and helicopters and F-16s.
    The way I look at it, I think these actions make it tougher 
for us to influence them, not easier, because I think if 
you're--if you're helping you have some influence. If you're 
petulantly pulling away then their attitude is going to be 
well, why do we have to listen to you.
    So tell me that I'm wrong, I mean, because I am really 
very, very upset about this and I just--you know, tell me that 
I'm wrong. And also, what does the Egyptian Government need to 
do for aid to be fully resumed, Ambassador Jones?
    Ambassador Jones. Thank you, Congressman Engel.
    That's a very important question. It's a question that we 
have discussed in considerable detail and extent with the 
Egyptian Government.
    We have explained to them that as much as we understood the 
events that took place from June 30th onward because of the 
millions of Egyptians that supported the action that the 
interim government took on July 3rd that we nevertheless, as 
the President put it, determined that we really could not 
continue business as usual given the violence that ensued in 
August.
    We therefore--as much as we do intend to continue working 
with the interim government, we have explained this in great 
detail to the interim government and we, as we recalibrated our 
assistance, focused on the core national interests of the 
United States and in areas that we cooperate on extensively 
with Egypt and that serve Egypt's interests as well.
    The Egyptian Government has told us that they understood 
our decision. They're disappointed by it but they understand it 
and they've told us that they are quite prepared to continue 
working with us on--in each of the areas that Mr. Chollet and 
Ms. Romanowski have described as well as on the roadmap that 
will restore Egypt to a democratically-elected civilian-led 
government.
    Mr. Engel. Anybody else care to comment? Mr. Chollet.
    Mr. Chollet. Congressman, I can just affirm what Ambassador 
Jones has said, that our conversation with our--and from a 
military-to-military perspective our conversation is ongoing, 
it's continuous, it's daily.
    And we have--I have detected--we have detected--the Defense 
Department no change at all in the level of the interaction and 
coordination that we have with the Egyptian military over the 
last several months.
    In fact, the closeness that we've developed over the three 
decades of working together has paid great dividends in the 
last several months in which we've needed those close contacts 
and close relationships.
    Mr. Engel. Let me ask you this. I think that the policy on 
change on Egypt really cannot be looked at within a vacuum. The 
region is falling apart. Syria is spiraling out of control. 
Iran looms as a significant threat.
    It just seems to me it's not very wise to risk alienating 
our traditional allies and friends including Egypt, Israel and 
the Gulf States.
    So what action did the administration take to consult with 
our regional allies regarding the plan to suspend some aid 
before the decision was made public?
    We've just seen Saudi Arabia lashing out. It just seems to 
me it doesn't appear to be very wise to start alienating 
governments that we've had 30 and 40 years of cooperation with. 
Ambassador?
    Ambassador Jones. Congressman Engel, thank you for your 
question.
    It's a concern that we are focused on. We want to be sure 
that we are clear as to why we are undertaking the--why we 
undertook the decisions that we did with regard to Egypt.
    We have had a very significant engagement throughout this 
period with the Egyptian Government and with all of our friends 
and partners around the world who are particularly--who are 
also as interested in Egypt's success as we are, whether that 
be in Europe or in the Arab world.
    So as things--as things rolled out, as things were underway 
in Egypt we were in constant conversation with the Gulf States 
that you particularly asked about as well as with our European 
allies to think how best we could work with the Egyptians to 
talk through how best to--how best to manage the kind of events 
that they were--that they encountered as this--as the events 
unfolded in Egypt.
    So as we made the decisions that we did that were announced 
on October 9th, we of course discussed that with the Egyptian 
Government, with the Congress and with our friends and allies 
who would be--who were particularly interested in Egypt to make 
sure that they were informed of our decision and understood the 
reasons for it.
    So there was no surprise for them with the decisions that 
were made because we'd been in such detailed conversation with 
them throughout this period as to what it was that we expected 
from the Egyptian Government and what we--what our hopes were 
for progress in Egypt.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go now to Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Thank you.
    The Morsi experiment in Egypt was doomed to fail and our 
administration's lack of a coherent and consistent Egypt policy 
is part of this pathetic state of affairs.
    Morsi ruled as a dictator, yet for all his transgressions 
the Obama administration did not seek to curtail the amount of 
U.S. taxpayer dollars that we kept sending to Egypt.
    We did not make access to that money conditioned upon Morsi 
and the Muslim-led government meeting even minimal democratic 
reform benchmarks.
    Now Morsi has been removed from power and violent clashes 
continue between pro-Muslim brotherhood forces and the interim 
Egyptian Government.
    The U.S. continued to fund Egypt after Mubarak was ousted. 
During that time, the Supreme Council of the armed forces 
assumed control of the government and under its watch there was 
an unprecedented crackdown on pro-democracy groups that 
resulted in the arrests of 43 NGO workers, many of whom were 
Americans.
    Since then, the 43 workers were convicted in a ruling that 
had no basis in the rule of law yet no aid was suspended or 
recalibrated. No one turned off the spigot.
    It's appalling that this administration has not prioritized 
the overturning of these politically motivated convictions.
    When will the administration push for Egyptian authorities 
to pardon these human rights advocates and what are you doing 
to support civil society programs in Egypt?
    Is the U.S. Government advocating specific reforms that it 
would like to see in the new NGO law? What are those? Earlier 
this month, the State Department said that the U.S.-Egypt 
relationship will be strongest when Egypt is represented by an 
inclusive democratically-elected civilian government based on 
the rule of law, fundamental freedoms and an open and 
competitive economy.
    But we've lost credibility and leverage throughout the 
Middle East due to our erratic policies in Egypt. Many Gulf 
nations have stated, as has been discussed, their frustration 
due to this administration's handling of Egypt and Syria issues 
and because of our misplaced faith in the rhetoric of Rouhani 
in Iran.
    What are the benchmarks that will be used to assess the 
progress of Egypt's transition toward democracy and what if any 
assurances has the Egyptian Government given that it is willing 
to cooperate?
    So we'll start, if we could, on the convictions of the 
NGOs.
    Ambassador Jones. Madam Congresswoman, thank you for the 
series of questions. Those are important issues for the United 
States.
    On the convictions of the NGO workers, we have been--we 
have expressed our concern through each of the administrations 
that have overseen the trial of the NGO workers.
    We have--we have advocated repeatedly very strongly for 
redress for the convictions in what we consider to be a 
politically motivated NGO trial and there have been quite a 
number of representations made to try to address exactly that 
question.
    With regard to the NGO legislation, we have engaged 
extensively with the interim government and with civil society 
to make sure that the kinds of things that we believe are 
appropriate in an NGO law are included.
    These are--these are elements that are--that are important 
for internationally accepted NGO laws and we have been, as I 
said, in touch with civil society to make sure we are 
representing their interests in a clear way.
    Ms. Ros-Lehtinen. If I could interrupt you just a second.
    Ambassador Jones. Please.
    Ms. Ros-Lehtinen. On the overturning of the conviction, 
what is the message that we are giving whatever government may 
be in place? Do we say you must do this--these people are 
innocent or what is our specific request?
    Ambassador Jones. Thank you for that.
    Our specific statement is that this was a politically 
motivated trial that has no place in a democratic government 
and therefore there must be redress--judicial redress, legal 
redress of some kind that----
    Ms. Ros-Lehtinen. What kind of--what kind of redress do 
we--what options are we giving?
    Ambassador Jones. For example--for example, that they--that 
we have asked that they--that there be no extradition requested 
for them.
    We have asked that they not be notified to the--to Interpol 
so that there are no red notices out for them. Those are the 
kinds of things that we have--that we have asked specifically 
for.
    Ms. Ros-Lehtinen. And overturning of their sentences--of 
their convictions?
    Ambassador Jones. We have asked--yes, we've asked for 
redress for the sentences.
    Ms. Ros-Lehtinen. Redress. Thank you. Sorry, out of time. 
Thank you, Mr. Chairman.
    Chairman Royce. We'll go now to Mr. Brad Sherman of 
California, the ranking member on the International Terrorism 
Subcommittee.
    Mr. Sherman. Thank you.
    A number of my colleagues have addressed the concerns of 
the Coptic community. This House passed 402-22 just last month 
a bill that would create a special envoy to promote religious 
freedom of religious minorities in the Near East and South 
Asia.
    This would be the one concrete thing we could do here in 
Washington structurally to be effective in advocating for the 
Christian community of Egypt and similarly situated Christian 
communities.
    What is the position of the Department of State on that 
legislation, Ambassador Jones?
    Ambassador Jones. We have a very active freedom--religious 
freedom office in the State Department. We undertake 
considerable advocacy all over the world and especially in 
Egypt on behalf of religious minorities or religions, not only 
minorities.
    But I regret I don't have the official position of the 
State Department of the U.S. Government on this particular 
legislation. I would like to either ask my colleagues to reply 
or take that question back.
    Mr. Sherman. Please give us an answer in a few days.
    Ambassador Jones. Thank you.
    Mr. Sherman. It's clear that the new government in Egypt is 
better for the United States as a nation state, more consistent 
in its policies in the Middle East with regard to national 
security.
    On the other hand, we are also the keepers of the great 
flame of democracy and human rights. We haven't always been 
consistent but our positions for democracy ring loud and clear 
decade after decade.
    Morsi was elected but he was elected in a way that gives 
credence to the view that when you elect the Brotherhood or 
similar organizations you get one person one vote one time and 
that is the last free election in that society.
    What have you done and the State Department done to explain 
that while Morsi was elected his departure is not a departure 
from the path of democracy, that he was not going on the path 
of democracy and that the actions taken by the military and 
others to depose him may be a detour that leads to democracy 
but certainly it's not a departure from a pristine path?
    Ambassador Jones. Congressman, that's an important question 
for the people of Egypt. We have been--we have been very clear 
as to the importance to us and the people of Egypt for them to 
move--continue to----
    Mr. Sherman. Ambassador, I think you misunderstand the 
question. We issue a human rights report. We comment all the 
time about democracy in other countries.
    The impression has been left, and I think Ileana Ros-
Lehtinen made this, that we didn't criticize Morsi's departure 
from democracy but we are criticizing Morsi's departure.
    What has the State Department done to inform the world that 
Morsi's departure may not be a--you know, was the departure of 
an autocrat in preparation rather than the departure of a 
pristine democratic figure?
    Ambassador Jones. At the time, Congressman, we were very 
clear that we understood that the removal of President Morsi 
was based on a very strong--very strong view by the--by the 
Egyptian people on the basis of millions of people on the 
street that they considered the administration not to have been 
democratic and we determined that we should continue to work 
with the interim government as they announced their roadmap to 
return to civilian--to a democratically-elected civilian 
government.
    Mr. Sherman. How much effort and good faith is Egypt 
putting in closing the tunnels between Sinai and Gaza? Are they 
doing all they can, Mr. Chollet?
    Mr. Chollet. I'm happy to take that one.
    They over the past several months have conducted 
significant operations to close the tunnels. Obviously, there's 
still a tremendous amount flowing into Gaza but they have shown 
considerable resolve in addressing that issue recently.
    Mr. Sherman. Finally, I'll say--and maybe you'll have to 
respond to the record--Morsi came to power in a democratic way 
but after he got elected he was not terribly democratic. Yet we 
did not suspend aid to Morsi.
    Now we've got a new government that isn't behaving any 
worse from a democracy standpoint than the Morsi regime and 
we're suspending aid. Ambassador, respond as you will.
    Ms. Ros-Lehtinen. Thank you, Mr. Sherman, and thank you, 
Madam Ambassador. If you could respond in writing to Mr. 
Sherman that would be great because his time has expired.
    And now we will move to Subcommittee Chairman Smith from 
New Jersey.
    Mr. Smith. Thank you very much, Madam Chair, and welcome to 
our panelists to the committee.
    In the past couple of years, I've held three hearings on 
Egypt focused almost exclusively on the human rights situation 
there and the deterioration of human rights.
    A fourth hearing was scheduled during the shutdown. It'll 
soon be rescheduled. The persecution of Coptic Christians in 
general and the abuse of young Coptic Christian teenage girls 
and young women for the purpose of coerced marriages to Muslim 
men was the focus of two of those hearings--the prime focus.
    And, frankly, Michele Clark, who is the adjunct professor 
with the Elliott School of International Affairs at George 
Washington University, was the former leader at the OSCE with 
regards to human trafficking--a very, very smart and 
knowledgeable and I think very competent human rights 
investigator.
    She came back after field trips to Egypt and said that the 
allegation of forced abductions, obviously abductions, and the 
coercion into these marriages is real. It is being underplayed 
and under recognized by the department.
    She pointed out that they--one of her trips just four 
lawyers told her of over 500 women, young girls, average age 12 
to 14, who have been abducted and forced into these Muslim 
marriages.
    The question is I've asked Secretary Posner when he was our 
human rights Secretary--Assistant Secretary, I should say--he 
said they're looking into it.
    When Ambassador Patterson Skyped into this committee, this 
was like 8 months after Frank Wolf literally took all of the 
testimony from Michele Clark, put it in her hand and 
practically begged her to investigate.
    Eight months later, I asked her what were the results of 
the investigation and she said, well, we haven't gotten around 
to it--not gotten around to looking into little girls 12 to 14 
and some older who are being forced into these Islamic 
marriages, mostly with the Salafists.
    They seem to be the ones that are doing it. The government 
doesn't seem to take it seriously. When these concerns are 
brought to the police they are not only trivialized, they are 
just put aside and not investigated.
    It is a very serious human rights abuse and I'm wondering 
exactly what has the administration done to investigate these 
cases--what has been the conversation exactly with the current 
government as well as the Morsi government to put a stop to 
this hideous practice.
    I mean, you can roll your eyes all you want but this is a 
very, very serious problem.
    I've met some of these parents who have lost their children 
when they were abducted. I'm a father of two girls. If somebody 
abducted my children I would not cease until I found them, and 
I've met with fathers including one in my own district whose 
daughter was abducted and was forced into one of these 
marriages and is being raped every single day.
    When Ambassador Patterson told me on this monitor she 
hadn't gotten around to looking at it, I was shocked, I was 
dismayed and profoundly disappointed. What are we doing now to 
combat this?
    Ambassador Jones. Congressman, I can't tell you how deeply 
I share your concern. We all do.
    We have issued many statements of deep concern for the--
because of these practices but especially because of the rapes 
and the failure of the Egyptian police to investigate these 
rapes and to bring those to justice who are responsible for 
these. We have----
    Mr. Smith. If I could, in terms of the abductions, and 
there's even houses where these girls are put in in province 
after province. What are we doing to say to the government this 
becomes a matter of conditionality for foreign aid to the 
Egyptian Government? Are we saying that?
    Ambassador Jones. Let me answer it this way, if I may.
    Mr. Smith. Please.
    Ambassador Jones. We have--this has been a subject of 
discussion undertaken by Secretary Clinton and Secretary Kerry 
at the highest levels of the--and I mean the highest levels of 
the Egyptian Government and we have instituted programs to 
train Egyptian police in women's issues, particularly Egyptian 
women police, so that they are empowered to investigate these 
crimes so that they are able to--so that women--girls and women 
feel safe going to a police station to report these----
    Mr. Smith. Again, this is a--thank you for doing that. But 
this is an issue that is systematic. It is getting worse. 
Michele Clark I just was on--in contact with her. She says it 
is getting worse.
    There are more of these, not less, and it's targeted 
against Coptic Christian girls, and then they force them to 
become Muslims. And they even have a term for it. They call it 
Islamicizing the womb because any child she bears thereafter 
will be a Muslim. What are we doing simply on that?
    Ambassador Jones. I agree that it's a terrible situation. 
The way--we believe the best way to deal with it is through 
rule of law, through enhancing the ability and the capacity of 
the Egyptian--of Egyptian institutions----
    Ms. Ros-Lehtinen. Thank you, Ambassador.
    Ambassador Jones [continuing]. To deal with these 
questions.
    Ms. Ros-Lehtinen. Thank you, Ambassador. Thank you, Mr. 
Smith.
    I'm sorry you're out of time. Mr. Schneider is recognized.
    Mr. Schneider. Thank you, Madam Chairman.
    I want to thank the witnesses for joining us here today and 
for sharing your perspectives. One other thing--Egypt is 
clearly one of our most important allies in the region, has 
been for over 30 years.
    As I understand what you're telling us, we are trying to 
convey a message of our commitment to the future and the 
aspirations of Egypt and the Egyptian people as a democratic 
country, as a pluralistic country, as a partner for peace and 
security in the region.
    I think one of the things you're hearing from us--I hear 
from various groups is that we are sending somewhat mixed 
messages. The message isn't getting clearly conveyed that we 
are supportive of the Egyptian people.
    We are supportive of the path they're taking toward a 
democratic process, toward a constitution. But we have serious 
concerns about the actions--some of the actions being taken at 
the moment.
    How do we change the message? How do we tweak it so that 
that commitment to the Egyptian people, to the direction Egypt 
is taking is made more clearly? Ambassador Jones.
    Ambassador Jones. Congressman, you've stated the--you've 
made the statement very eloquently and I appreciate that and I 
will--if I may quote that to----
    Mr. Schneider. Please.
    Ambassador Jones [continuing]. My Egyptian--my Egyptian 
colleagues.
    I argue that the best way to convey that message, your 
message which you stated so clearly, is repetition. It is--it 
is constant engagement, which we are undertaking.
    It is constant engagement at the senior level as well as--
as well as all levels in Egyptian Government, Egyptian 
institutions and with civil society to help them understand how 
much we support their democratic aspirations, how much we 
support the breadth of what we believe goes into a democracy. 
It's not just the roadmap. It's not just a constitution and a 
referendum and an election.
    As one of your colleagues said very eloquently, there's 
much more to democracy than an election and those are the kinds 
of concepts that we're trying to get through in some of the 
training programs that we fund.
    In the military training that we undertake, it's terribly 
important for our military colleagues to understand their role 
in a democracy, how much they are--their job is to support a 
civilian government and the best way we can do this is by 
constant engagement and by--and with your help to give us the 
flexibility so that we can continue the kinds of programs that 
allow us to work with civil society, that allow us to work with 
educators, that allow us to work with the Egyptian military, 
that allow us to work with Egyptian police to train women 
police on the kinds of things that Congressman Smith was 
talking about.
    It's a constant intense effort that we--but we need your 
help in order to allow us to continue to have the flexibility 
and the legislation to continue these programs.
    Mr. Schneider. Great. Thank you. I think one of the key 
things it's not either or. We need to have the progress made in 
civil society.
    We as a country look to Egypt to make sure they are 
protecting religious minorities. They are protecting young 
women from some of the serious crimes we've heard about.
    At the same time, Egypt has been a bulwark of the security 
arrangement piece with Israel. Mr. Chollet, I look to you. What 
are our long-term plans to make sure that Egypt is able to 
modernize its military to be able to secure Sinai, to close 
those tunnels?
    What are we doing to make sure that continues to move 
forward?
    Mr. Chollet. Well, Congressman, we're seeking to continue 
this relationship. Although we are holding certain large 
weapons systems we are still continuing a large array of 
assistance to them and that helps sustain their existing 
systems to support operations in Sinai, for example.
    It also helps on the training piece because as they train 
on these new systems, work with our military and learning how 
to use them, it helps them develop skills that they don't 
otherwise have.
    So we very much see this as a long-term relationship. The 
reason why we want to work closely with you to forge a way 
ahead is because we believe that over the long term this is in 
our security interests--that we want to encourage Egypt to move 
forward on a democratic process and inclusive transition.
    But we believe very firmly that it is in our security 
interest to have a strong defense relationship with the 
Egyptian military and that's what we're seeking to sustain.
    Mr. Schneider. If in the last few seconds I can take back, 
how are we doing? Because this relationship obviously isn't in 
a vacuum.
    Russians are looking to build their relationship. How do we 
make sure that the primacy of our engagement with Egypt is 
maintained?
    Mr. Chollet. Very quickly, it's a relationship we've built 
over three decades with them. I think that they want to work 
with us. They understand the great--the unique capabilities the 
United States military has and they want to learn and work with 
those capabilities.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    And we will go now to Subcommittee Chairman Dana 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Madam Chairman, and 
let's just note and repeat that the future of Egypt is vitally 
important to the stability of a huge section of the planet and 
we now face with the people who live in that section of the 
planet the threat of radical Islamic dictatorship and radical 
Islamic terrorism that affects us here.
    So we will not be safe if the outcome in Egypt is not the 
right outcome, and while we recognize that and we also 
recognize that we haven't--there was an election. After years 
of authoritarian rule that it looked like Egypt was going 
toward a democratic goal.
    But that goal was being undermined by Mr. Morsi, who had 
been elected and used the power that he assumed in the election 
to try to destroy the direction of Egypt's going to a more 
democratic country and that had said was trying to redirect 
that revolution toward a radical Islamic end, which would have, 
as I say, undermined stability.
    That we get from your testimony. You understand that. We 
all agree on that.
    What I don't understand is while we--while we say that, at 
the same time we're saying but, of course, General al-Sisi we 
do know and we're very grateful to him for stepping in to 
prevent this radical Islamic shift that would have destabilized 
the region and affected our own national security. We recognize 
that. But we're not going to give him any weapons.
    We're hanging General al-Sisi and the people that we're 
applauding for defeating radical Islam in Egypt--we're leaving 
them hanging out to dry. Our words of--yeah, giving them 
foreign aid but not the ability to defend themselves means 
nothing.
    I remember the surge in--I guess it was '75 when Congress 
decided not to provide weapons to the South Vietnamese 
Government.
    It cracked because they said we're not going to be able to 
get the weapons to defeat this enemy. Well, if, Madam 
Ambassador, we are not going to give them the M1A tanks, we're 
not going to give them Harpoon missiles, we're not going to 
give them the parts for Apache helicopters, all of which are 
needed to make sure that we don't have an uprising in the Sinai 
that will destabilize the region and perhaps end up putting 
everybody, you know, in jeopardy that we want to succeed, how 
can you justify--and when we were just over in Egypt and they 
were talking to us about how we need these Apache helicopters--
how can we justify if we do believe that the elimination of 
Morsi was positive how can we justify not giving them the 
weapons they need to defeat the radical Islamicists that will 
change the nature of that situation? Madam Ambassador.
    Ambassador Jones. Congressman, let me give you a few top 
lines and maybe my colleague, Derek Chollet, can add to it.
    We hear your concern. We agree with that concern. That's 
why, as we looked at the situation and decided on how we were 
going to proceed to send the right signals and yet make it 
possible for the Egyptian Government to undertake the kinds 
of--the kind of work that we thought suited U.S. national 
security interests and Egypt's--that's why we continued 
sustainment for this equipment so that they could continue to 
use the Apache helicopters that they have without difficulty in 
getting the spare parts and the training that they need for it.
    So these systems, both the sustainment and the training for 
these systems, is part of what we will continue. It's the new 
systems that are on hold. But maybe my colleague can fill in 
further.
    Mr. Chollet. Sir, that's right. So very briefly, we are 
continuing to sustain all of the weapons systems that we have 
been providing them previously. The policy at this point--the 
decision was to hold some new deliveries.
    Not cancel the contracts but hold some new deliveries that 
they would be getting so they already have 19 or 20 Apaches 
already.
    This would be holding four new ones that they were to get. 
So our judgment is this does not affect their operational 
capability right now.
    Mr. Rohrabacher. So in the middle of a conflict when people 
are using weapons and they are running down, meaning every time 
you use a weapon it has less life in it, we're just going to 
let them run down until--and the word that we're giving them 
and we're sending the Islamicists oh, don't worry, we're not 
going to give them any new weapons.
    Do you think that will encourage the radical Islamicists in 
the Sinai or discourage them?
    Mr. Chollet. They have considerable operational capability 
in the Sinai that they are using and we are assisting them with 
sustaining those weapons systems that they do have which do 
overpower the extremists.
    Mr. Rohrabacher. Limiting--I'll leave it with this--
limiting what we're doing to help al-Sisi defend himself 
against radical Islam and defend Egypt against radical Islam--
limiting that is harming his ability to defeat an enemy that 
affects our own national security and we better get--understand 
that and putting those limits now while he's in conflict 
undermines the competence of his own soldiers that they're 
going to be able to succeed.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Rohrabacher. This is the time----
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher [continuing]. And not undermine----
    Ms. Ros-Lehtinen. And I'm sorry. I had lost track of time.
    Dr. Bera is recognized. Thank you, sir.
    Mr. Bera. Thank you, Madam Chairwoman, and I want to thank 
the witnesses.
    We all acknowledge Egypt's critical role here and that they 
are a vital and critical partner and a strategic partner. We 
also acknowledge, you know, as we're looking at their 
transition over the past few years that democracy is much more 
than just a fair election.
    By all accounts, Morsi's election was a fair election but 
he failed in making needed political reforms. He also failed in 
making needed economic reforms and, you know, as we look at our 
long-term goals, thinking about how we helped Egypt in this 
transition which is, you know, not going to be a matter of 
months--it's going to be a matter of years to stability, 
economic reforms and political reforms, I'm going to--my 
questions are going to be to all three of you how we go about 
helping that.
    When we had Secretary Albright here earlier we did ask her 
directly the question of whether we should continue to provide 
aid to Egypt and military aid, and she was pretty direct in her 
answer, saying unequivocally yes because without providing that 
and without providing the continued aid we wouldn't have a seat 
at the table.
    We wouldn't have dialogue and if we wanted to continue to 
participate in this long-term strategy we would need to 
continue that. Would all of you agree with that statement? 
Great.
    We also--when we had Mr. de Soto here he focused 
specifically on the needed economic reforms that would ensure 
some stability of democracy and ensure some foundation of 
democracy, and maybe I'll ask Ms. Romanowski to start off with.
    He really did focus on the importance of property rights 
and the importance of rule of law in terms of long-term 
foundation of democracy and, you know, from USAID's perspective 
what are the things that we're doing to help, you know, move 
Egypt in that direction of those reforms?
    Ms. Romanowski. Thank you, Congressman, for the opportunity 
to talk a little bit about our programs and particularly under 
this policy what we hope to be able to continue both because we 
have--can proceed with some legislative authorities.
    But specifically to your point, we--under our democracy 
rights and governance programs we can pretty much continue 
almost everything that we do that benefits the Egyptian people. 
We can continue to work with civil society to build their 
capacity to become advocates of their position.
    In fact, we are--we are able to continue the legal 
assistance for women and children that Congressman Smith was so 
concerned about and we are--we can continue through our work in 
anti-corruption promotion.
    On the economic growth, again, we talked--we are trying to 
focus more and more our assistance on helping the business 
environment and help the emerging entrepreneurs in Egypt to be 
able to get access to capital. The Enterprise Fund is one 
model.
    We are training young entrepreneurs who are coming out of 
universities as well as at the very local level to get the kind 
of training they need to build good business plans.
    We would like to work with Congress as we move forward to 
ensure that we can get back to doing the kinds of economic 
reforms that we can with--directly with the government.
    Mr. Bera. Right. And maybe for Ms. Romanowski or Ambassador 
Jones, part of the long-term strategy that Secretary Albright 
also pointed toward was building a political infrastructure. 
Obviously, part of how Mr. Morsi won the election was there was 
just one organized political party.
    So in a long-term political system, are we helping the 
Egyptians understand that political process and build that 
political infrastructure?
    Ambassador Jones. Yes, Congressman, I think that's a very 
important element of a lot of the work that we do, not only in 
terms of our assistance programs but in terms of the advocacy--
the political advocacy that we undertake with the Egyptian--
with the Egyptian Government, with Egyptian civil society.
    We work extensively with Egyptian civil society 
particularly on political, how to have a political party, what 
goes into a political party, how do you have a platform, how do 
you define a platform, how do you raise money--those kinds of 
things. So in some ways, the more technical side of political 
parties.
    But we also talk, as we have been working with civil 
society and with members of the government, how do you 
compromise--how do you attack a problem across party lines. You 
could talk about it on our terms or how do you talk about it 
across ideological lines if you're not in a political party. 
How do you--how do you think in terms of the interests of the 
government or the country--how do you think in terms of the 
interests of a particular group of people in order to advocate 
for your position and to get the changes that you need in your 
position.
    One thing that we found after the--after the last election 
was that some of the minority groups--in particular, women, 
others--were disappointed that their voices were no longer 
heard.
    They voted for the government that came in and then were 
disappointed that they no longer felt that their voices were 
being heard. We said it's not just one--time thing. It's not 
just a vote. It's constant effort.
    It's constantly rolling up your sleeves and advocating for 
your position and working across lines of other minority groups 
possibly--other political parties--parties you may never occur 
to you to agree with that you may be able to make some kind of 
a joint program with in order to pursue your objective in ways 
that suits your community or suits your particular minority 
group.
    Mr. Bera. Looks like I'm out of time.
    Ms. Ros-Lehtinen. Thank you very much. And now we will go 
to Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair.
    I appreciate the panelists being here. I want to build on 
what you said just here but I want to--before we go to that, 
you know, I look at what's going on over in Egypt and I would 
like to have what you think we need to do different.
    I mean, I've got numbers here that we've spent--invested 
I'll say 70--over $73 billion from 1948 to 1997, roughly around 
$46 billion and that was a 50-year period and then the last 15 
years we've invested roughly another--the balance of that, 
about another $30 billion.
    And what I see is just a repeat of the same thing. You 
know, we've got a fractured government more than we've ever 
seen in the last 30 years since Anwar Sadat. We've gone 
backwards, it looks like, and you were talking about how one 
voice that get the vote.
    But yet in a government that doesn't respect the things 
that we hold dear in a Western society or Western values--human 
rights, freedom of speech, freedom of religion--how can you 
expect the voice to be heard by their government if that 
government doesn't respect that and should we continue spending 
in the same manner that we have been, or what I want to hear 
from you is what do we need to do different.
    It just--what we're doing is not working. I don't see a 
good result for the money we've invested.
    Ambassador Jones. Congressman, thank you for that question.
    I'd point out--just to point to a couple of things that I 
think have worked very well over the years that we have been 
working with Egypt and providing the extensive assistance that 
you've talked about, I think one of the most important aspects 
of this is on the military-to-military cooperation that Derek 
Chollet has talked about, in particular in support of the 
Egypt-Israel peace treaty.
    Thirty years ago, 40 years ago when I first started in the 
Foreign Service the idea that Egypt and Israel would be talking 
to each other as much as they are about Sinai security was an 
unheard of circumstance, and I think we can--we can be very 
pleased with the kind of assistance that we've provided and the 
kind of political support that we've provided that has brought 
that about.
    I think that's very important. It's terribly important as 
far as U.S. interests are concerned that Egypt is going after 
the Sinai security issues in the way that Derek Chollet has 
described.
    But I would also say that the work that we've done over the 
years in developing civil society even under the autocratic 
rule of Mubarak has been a--was very, very important in 
supporting the ideas that the Egyptian people themselves 
brought forward in Tahrir Square in 2011.
    Mr. Yoho. Well, I hear you say that but then we hear what 
Mr. Smith just said about the Coptic Christians and we just saw 
what happened, you know, with all the slaughter of them, 
basically.
    And so you're telling me we're making headway but I'm not 
seeing it. I've never been there and you have, obviously. But 
I'm just not seeing that and go ahead and--let me talk to Mr. 
Chollet.
    You were talking about the military, how we're helping them 
advance it. Again, if we go back and look at history and the 
money that we've spent on military assistance it's been $41 
billion, $42 billion over the last 50 years. Why has that 
government not rised up--raised up and developed their own 
strong military?
    What's preventing them from doing it other than are they 
just corrupt to the point that they just have their hand out 
knowing that America will be there to help shore them up?
    When are they going to pick up the ball or the baton and 
run with it on their own without our assistance, or is that a 
possibility?
    Mr. Chollet. Well, in part what we're trying to achieve is 
develop a strong partnership with them so part of our 
assistance allows them to buy U.S. systems.
    Mr. Yoho. How long is that going to take? I mean, we've 
been doing it, again, since the 70s.
    Mr. Chollet. Well, and the purpose of that--of the shift 
that we saw in the late 70s, early 80s was to get them off the 
Soviet systems----
    Mr. Yoho. Right.
    Mr. Chollet [continuing]. That they then had onto U.S.-made 
systems, which is in our interest for a variety of reasons. 
It's in our interest because they're more capable. It's in our 
interest because it goes down to U.S. jobs.
    It's U.S. systems, U.S. weaponry that they're purchasing 
and that they're training on and that they're learning on which 
is quite effective when it comes to dealing with their security 
needs but also our security needs.
    And I think one of the great benefits that we, the United 
States, has gotten out of this relationship over the many years 
of investment that we put into it is a capable military, a 
military that is able to address the real security threats that 
it faces and also a military that is living up to its 
commitments in the Camp David peace treaty, something that was 
unimaginable 40 years ago.
    But from the perspective today, Israel and Egypt are at 
peace and their militaries do work together to deal with common 
threats.
    Mr. Yoho. I have no--I'll my turn my time back to you, 
ma'am.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho. Thank you.
    I'm pleased to yield time to my Florida colleague, Mr. 
Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Nice to see you in 
the chair again.
    Assistant Secretary Jones, you discussed the best way to 
communicate our strategy in Egypt and you talked about 
repetition at the highest levels and expressing our values to 
military leaders.
    But how do we--the problem diplomatically I think is not--
and it's a box that I think in many ways we put ourselves in. 
It's not how we communicate at the highest levels.
    It's how we communicate to the Egyptian people, not waiting 
for the military leaders to start espousing great democratic 
ideals every day. But how do we let the Egyptian people know 
that that--that these are ideals that matter to us, that 
they're a fundamental part of our policy?
    Many, and you've heard this, and many of the Egyptian 
people--the perception of many on the street in Egypt is that 
at best is that we simply support who's ever in power, at worst 
that perhaps because we didn't speak forcefully enough to them 
about democracy during the Morsi period that now they wonder 
how strong these beliefs really are.
    Ambassador Jones. Thank you. I didn't--I apologize. I 
didn't mean to imply that we were speaking only at the highest 
levels.
    We certainly are speaking at the highest levels but we also 
have very extensive outreach at the grass roots level through 
tweets, through all kinds of public diplomacy programs, through 
engagements with university students, with youth, with young 
entrepreneurs with as many groups and organizations that we 
can--that we can find and have--and have access to, and we have 
extensive access all over the country.
    It isn't--as you yourself have said, it's not an easy 
message to convey but it's one that we work on all the time to 
try to help our Egyptian counterparts understand how much we 
support their aspirations, why we support their aspirations, 
what we think goes into the kind of democracy that they're 
working toward, and to work with them in some of the training 
that we do and the techniques that one can use in order to get 
at some of the progress that they'd like to get to.
    Mr. Deutch. Right. At the risk of--at the risk of sounding 
perhaps just a tad cynical, as someone who loves to tweet as 
much as the next Member of Congress, what are we tweeting about 
that carries any sort of significance?
    What--in terms of social media all--there's been so much 
discussion about the role that social media played and has 
played in Egypt, particularly at the outset of the democracy 
movement. What are we doing to contribute to that? How do we--
how do we join in?
    Ambassador Jones. I regret that I'm the wrong generation to 
be--to explain it completely. But I'm always impressed with my 
very much younger colleagues who are very good at understanding 
how to get these kinds of ideas across in the short form of 
tweets but also in engagements with youth.
    So the engagements and the public diplomacy goes all the 
way from explaining that we haven't cut off assistance. We are 
holding some and we're continuing quite a bit.
    But it also goes to some of the--some of the political 
democracy issues that we talked about--what does freedom of the 
press mean, how do you find the balance between support for--
expressing support for the government and yet having a free 
voice to say we don't like what the government did on X issue 
and that's--and to explain that that's an absolutely 
appropriate thing for a stable democratic government that no 
one need fear.
    Mr. Deutch. And in my remaining minute, Ms. Romanowski, can 
you speak to--there's been a lot of discussion here today and 
in the press about what's been suspended.
    Can you speak to the specific civil society programs that 
are ongoing and what kind of democracy building we're seeing 
through those programs?
    Ms. Romanowski. We have a number of democracy in governance 
programs that we're continuing. We are working--we have 
implementers who are working on elections and, again, as my 
colleague said about how you build stronger political parties, 
how you advocate for your positions, how you're more tolerant 
of other positions. So we do engage.
    We spend a lot of time trying to build up civil society. 
How do you--how do organizations become strong enough to and in 
many cases it's the mechanics of building an organization that 
can advocate, that can raise funds, that can engage with both 
their colleagues at the local level and at the national level.
    We have programs that focus on anti-corruption. So we're 
going to continue and we can continue with those programs. 
There was an earlier question about the reaction to the 
Government of Egypt on having to suspend some of our----
    Ms. Ros-Lehtinen. Thank you.
    Ms. Romanowski [continuing]. Some of our programs.
    Mr. Deutch. I just hope, Madam Chairman, that all of those 
important civil society programs that we're engaged in that 
we're utilizing--that those young kids who are out there 
tweeting and on Facebook are making sure that the Egyptian 
people understand the involvement that--the role that we're 
playing to promote democracy.
    Thanks, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. And now we will go 
to Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chairman.
    I want to follow up a little bit on the suspension, 
Ambassador Jones. We made a suspension to suspend part of the 
aid that we're giving. Was that following law or was it a 
policy decision to advance U.S. foreign policy?
    Ambassador Jones. It was a policy decision to send a 
message to the Egyptian leadership that we were not happy. We 
were disappointed by the actions that they took that resulted 
in the violence in August, that we could not pursue business as 
usual but that we supported the roadmap that they had outlined.
    We supported the effort to get to a democratically-elected 
government and so we decided to hold on the deliveries. We 
didn't suspend assistance.
    We decided to hold on the deliveries of some of the larger 
weapons systems that were not really necessary in order to 
accomplish the goals that we--that we outlined--that we wanted 
to continue Sinai security, border security, counterterrorism, 
the kinds of things that are critical.
    Mr. Meadows. So no--so no law at this point--we're not 
complying with any law or going down that direction of saying 
that a law was violated and that's why we've suspended or 
withheld however, you know, you want to classify it?
    Ambassador Jones. We decided that we did not have to make a 
determination about--you're asking about whether or not a coup 
took place. We decided we did not have to make a decision on 
that or make a statement one way or the other.
    But we decided we should act consistent with the law and--
--
    Mr. Meadows. I'm a little confused----
    Ambassador Jones [continuing]. And that goes to what Ms. 
Romanowski has been talking about.
    Mr. Meadows. Well, I'm a little confused because both you 
and Ms. Romanowski have talked about legislative fixes and if 
these are policy decisions how would you need a legislative fix 
unless there was a law that was being violated?
    Ambassador Jones. We--it's a good question. We have been 
briefing staff as much as we can on our--on how we think this 
should proceed.
    We decided that we did not have to make a determination one 
way or the other in terms of the definition but----
    Mr. Meadows. So you don't need a legislative fix?
    Ambassador Jones. But we felt that we decided that we had 
to act consistent with the law and therefore because of that we 
believe we need a legislative--we need legislative flexibility 
in order to continue the programs that we've been talking about 
this morning.
    Mr. Meadows. So you're abiding by the law but you haven't 
violated the law. I don't--I don't understand that. Ms. 
Romanowski, do you want to comment on that?
    Ms. Romanowski. Yeah. If I can--if I can give a very 
pointed example, being consistent with the law has allowed us 
actually to go forward under other authorities to be able to 
continue work that isn't done directly with the Government of 
Egypt.
    The programs in the case of the economic assistance affect 
our basic and higher education because those programs, the bulk 
of which work directly with the Ministry of Education and work 
in public schools, so public institutions and----
    Mr. Meadows. So if a coup had happened you couldn't help 
with schools is what you're saying?
    Ms. Romanowski. Consistent with that law, abiding by the 
law we were not able to continue programs that we work with 
government and public institutions and public authorities.
    Mr. Meadows. So we can help with schools but we can't help 
with the government?
    Ms. Romanowski. We cannot help with public schools or 
public institutions. We can continue work with private schools 
or we----
    Mr. Meadows. So what legislative fix are you looking at? I 
mean, because I'm confused. I would think that the Egyptian 
Government would be confused. I mean, what are you--what are 
you looking for here?
    Ambassador Jones. We're looking for flexibility in the 
legislation that would allow us to continue----
    Mr. Meadows. That says that we----
    Ambassador Jones [continuing]. Programs.
    Mr. Meadows [continuing]. We didn't have a coup. Is that 
what you're looking for?
    Ambassador Jones. In the--in Section 7008 that's----
    Mr. Meadows. So basically you're looking for us to say that 
a coup didn't happen?
    Ambassador Jones. We're looking for the flexibility in the 
legislation that allows us to continue programs with the 
Egyptian Government that we otherwise are not continuing 
because we believe we must act consistent with the law.
    Mr. Meadows. All right. Let me, in the 30 seconds I have 
remaining, a whole lot has been talked about democracy and 
we're all for democracy.
    But the underlying--in this hearing months ago the 
underlying foundation was economic, economic, economic and it 
seems like we're missing a whole lot of the economic viability 
that creates instability. I'd love for you to comment if you 
have time and if not in written reply later.
    Ambassador Jones. I'll make a very quick comment. I agree 
with you. We all agree with you that economic reform is a 
critical element to what will bring Egypt to the stable country 
that we all aspire to.
    The kind of economic reforms that are the most appropriate 
are ones that have been suggested already by the--by the 
international financial institutions.
    Those kinds of reforms are ones that we've also advocated 
to the Gulf States that are providing economic assistance right 
now to Egypt as appropriate for them to advocate for so that--
so that the institutional reforms are undertaken in ways that 
produce the kind of Egypt that we all look for.
    Mr. Meadows. I'm out of time. Thank you, Madam Chair. I 
yield back, Mr. Chairman.
    Chairman Royce. I thank the gentleman. We go to Mr. Juan 
Vargas of California.
    Mr. Vargas. Mr. Chairman, thank you very much and, again, 
thank you for holding this hearing and I appreciate it and 
thank you for the witnesses--for being here.
    I have to say that I had great concern when President Morsi 
was elected. I believed that the country was going to head 
toward radical Islam, and a little test for you here. What's 
the largest country in population in the Middle East?
    Ambassador Jones. It's Egypt.
    Mr. Vargas. It is Egypt--84 million people. I mean, if you 
take a look at the size of Egypt, 84 million people, Iran 76 
million, Iraq 35 million, Saudi Arabia 30 million.
    I think if you have a nation like the size of Egypt sliding 
into radical Islam I think it's very problematic. What's the 
second largest nation in the Middle East?
    Ambassador Jones. I would say my--off the top of my head I 
think it's Iran.
    Mr. Vargas. It is, with 76 million people and we saw what 
happened when you have a nation that large slide into radical 
Islam. So I think it's very important that we remain very 
engaged with Egypt.
    I think it's especially important because of our 
relationship with Israel, our strongest ally. If you want to 
talk about democracy, now, there's a democracy. They could 
teach us a little bit about democracy and that's why I think 
we're such allies with Israel.
    Now, the relationship between Israel and Egypt is such an 
important relationship to remain--to keep the peace in the 
Middle East.
    I do have great concerns when we start to cut off this aid. 
I do. Now, my understanding then from what I hear today is that 
we cut off some of the aid but at the same time we continue to 
work with them, with their protection and you were describing 
that a little bit more but it seems that the Israelis don't see 
it that way.
    They have some great concerns as I do that we're taking an 
ally here and we're hurting them, maybe debilitating them in 
such a way that it would become very problematic for our own 
national interests.
    So I just want to voice the same concerns that Mr. Elliot 
Abrams did. I have great concerns about that. I would want to 
ask this, though. Numbers--a number of numbers were thrown out 
there so I'd like to ask this. What was our economic aid to 
Egypt last year?
    Ms. Romanowski. The economic support funds that we give to 
Egypt annually are $250 million.
    Mr. Vargas. So if you divide that into 84 million people, 
and I'm not very good at math, what is that number?
    Ms. Romanowski. Can I pull out my computer? I'm afraid 
I'm----
    Mr. Vargas. You can--you can round it off here. What do you 
think it is? $250 million, 84 million people. Someone want to 
help on the panel?
    Ms. Romanowski. Three--$2 to $3 at best.
    Mr. Vargas. Like $3--a little over $3. A slice of pizza in 
New York City.
    I mean, it's interesting listening to the numbers here 
thrown out like somehow we're, you know, the aid that we're 
giving is incredible and, you know, we're going to be able to 
force them to change everything because of the $3, the slice of 
pizza that we give each one of their citizens. And that's not 
going to--that's not going to happen.
    I mean, I am very concerned what's happening with the 
Coptic Christians, very much so. I'm a former Jesuit and I 
think what's happening there is outrageous and we have to do 
something about it, and I think that we are. But at the same 
time, there's 84 million people there.
    I mean, I do think we have to engage the best we can to go 
after because I think the comments that were made are real and 
we have to do something about that but understanding, again, 
the situation.
    We can't walk away from this nation that's so central to 
what we're attempting to do to bring peace to that region.
    So I do have great concerns, once again, about our--I don't 
want to call it disengagement but our somewhat disengagement 
there by giving less military aid. I think it is problematic.
    I want to see us--I want to see us continue to work with 
Egypt, not abandon Egypt. I think that would be a horrible 
mistake. Would you like to comment about that, Ambassador?
    Ambassador Jones. Yes, Congressman. Thank you very much.
    We agree completely that under no circumstances should we 
be walking away from Egypt and we designed this policy 
precisely to be sure that we don't do that.
    So that's why we are working so extensively with the 
Egyptian Government about their roadmap to elected government, 
to elected civilian government with what all of the rights of 
minorities, freedom of the press, those kinds of things, that 
we have talked about this morning.
    And as we see their progress we will be reviewing our 
assistance situation with a look to lifting the holds on--that 
we have--that we have--lifting these holds so that we can get 
back to the full relationship that you and we and they would 
like to have.
    Mr. Vargas. Okay. Because I--again, my concern is that we 
have some friends in the region. Let's not stiff arm our 
friends.
    Ambassador Jones. Absolutely.
    Mr. Vargas. That's a bad policy. Thank you very much. I 
yield back.
    Chairman Royce. Thank you, Mr. Vargas.
    We're going to go to Mr. DeSantis at this time.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Did we consult with Israel prior to the decision to 
withhold military aid from Egypt?
    Ambassador Jones. As events unfolded in Egypt from just 
before June 30th--let me throw out June 30th through July 3rd 
through the violence in August we were in constant conversation 
with Israel as well as with other countries who are as 
interested as we are in Egypt's success.
    So as the situation unfolded we were in constant discussion 
with them as with others as to what our concerns were, what our 
hopes were for Egypt to get back on track to a democratically-
elected civilian-democratically-elected civilian government so 
that as we made the announcement on October 9th as to the 
decisions on how we were going to demonstrate our concern about 
what had happened the--we informed the Israeli Government as 
well as other governments and so that--and because we'd have 
been in such extensive conversation with them this is no 
surprise to them and no surprise to others.
    Mr. DeSantis. So in terms of the peace treaty between 
Israel and Egypt does this decision with military assistance 
from Israel's perspective is that helping to solidify that or 
is that making that a little more tenuous?
    Because when Morsi came in I thought that there was--it 
didn't seem to me that that was necessarily viable. I mean, 
maybe, maybe not. But under Mubarak we knew that was a bedrock 
of the politics of that region.
    So that decision--what did Israel say in terms of how that 
would affect the viability of that peace treaty?
    Ambassador Jones. From everything that--from every 
conversation that we had with the Israelis we emphasized the 
importance of doing what we--of ensuring that the decisions we 
made would be fully--would allow Egypt to continue to be fully 
in support of the peace treaty.
    Mr. DeSantis. And did you want to----
    Mr. Chollet. Sir, if I could just comment briefly.
    Mr. DeSantis. Sure.
    Mr. Chollet. From the military perspective we are in 
constant contact with the Israelis. We have been throughout 
this process.
    In fact, the very week that our policy announcement was 
made Israeli Defense Minister Ya'alon was in Washington with 
his senior team meeting with Secretary Hagel, meeting with all 
of us in the Defense Department about Egypt but also many other 
issues in the region. So there were no surprises here and they 
are fully aware of our thinking on Egypt moving forward.
    Mr. DeSantis. So in terms of the Sinai, what is being done 
if anything to support the Egyptian military's efforts? Because 
I know Morsi had threatened to move force in there and I know 
Netanyahu pushed back on that.
    And, obviously, we even have some U.S. troops there as part 
of a peacekeeping mission.
    So what is being done to support the military and then what 
contingencies if any do we have if there is a prospect of a 
period of instability in that canal zone?
    Mr. Chollet. Well, sir, as you mentioned we have about 600 
U.S. troops that are in the Sinai right now as part of the 
multinational force observer mission that was created by the 
Camp David peace treaty.
    We do support the Egyptian military in sustaining many of 
the systems that are being used in the Sinai. So although we 
don't have an operational role in what they are doing in the 
Sinai the systems that we help them sustain and train on and 
use are being used in the Sinai.
    We keep in very close touch with the Egyptian military. Our 
Embassy in Cairo and our defense team there as well as us here 
in Washington talk with our Egyptian counterparts constantly 
about Sinai as well as our Israeli counterparts because there 
are certain restrictions that the Egyptians have on them 
through the Camp David peace treaty about what sort of 
equipment they can use and deploy into Sinai and they have to 
coordinate with the Israelis on some of those movements of 
equipment to ensure that there's transparency and that both 
sides are comfortable with what's happening there.
    Mr. DeSantis. And this could be for whoever wants to speak 
about it but when Morsi was elected that was viewed as a 
positive sign for Hamas.
    Now that we have the military who is in charge can you 
describe the relationship between what we call the Egyptian 
Government at this point and Hamas and do you believe that a 
continued deterioration in our relationship with Egypt would 
benefit Hamas?
    Ambassador Jones. Hamas has taken some hits as a result of 
the actions that Egypt has taken in the Sinai to close down the 
tunnels, to close down the ability of--to close down 
transportation of goods into Gaza.
    So my expectation is that Hamas will continue to suffer as 
a result of the--as a result of the interim government in 
Egypt.
    Mr. DeSantis. Thank you. I'm out of time and I yield back 
to the chairman.
    Chairman Royce. I thank the gentleman.
    We go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Royce, and I think today's 
hearing really brings to home, first of all, that it's 
important that we be a model for the world and keep our 
Government open. I think that would be a good thing.
    But I want to say that Mr. Rohrabacher did lead a trip 
this--last couple months that I had the honor of going on. It 
was--we went to Cairo and it was probably, for me, one of the 
most amazing experiences I had because we got to literally 
spend hours with President Mansour, with General al-Sisi, with 
the Coptic Pope Tawadros II.
    They said some things to me. I don't have a lot of time to 
discuss them all but I want to sort of very simply summarize 
what they said and tell me whether you agree.
    But let's see, we were told that they felt that the peace 
treaty with Israel is secure. They would honor it, that they 
were committed to also protecting the Gaza Strip, that 
President Morsi had overreached and was incompetent, that they 
had a plan to get to elections.
    They were reforming their constitution now and then they--
and they were going to have elections for Parliament and then a 
President.
    We were told by the Coptic Pope that Morsi had burned 
churches and prosecuted Christians and also I did ask the 
question and this, I think, Congressman Royce picked up on this 
and I really agree.
    I asked the question what is your economic plan. I asked 
that to them several times with absolutely no answer. So my 
first question to you is whether or not those assertions or 
comments that were made to us seem correct and I just want to 
say one other thing really to pick up on something that the 
chairman said.
    The biggest observation I had when I went to Cairo was 
literally the hundreds and hundreds of cars on the street that 
I saw, which led me to believe that people are really actually 
trying to get on with their life, trying to go to work. I mean, 
that seemed--that really seemed obvious to me. So if you could 
comment on that.
    Ambassador Jones. Let me just make a couple of quick 
comments.
    I think definitely we understand exactly as you were told 
that there is a strong desire to protect the Egypt-Israel peace 
treaty, to honor the peace treaty and to work with it both in 
spirit and in substance.
    Second, on the constitution there is work underway to 
revise the constitution, to bring it into line with what the 
committee believes would reflect the views of Egyptian society 
now.
    There will be a referendum after that, and as I told you 
it's just part of the road plan that they outlined the 
elections--for Parliament elections for President.
    On the economic plan, we have advocated very strongly as my 
colleague, Alina Romanowski, has said how important it is for 
there to be economic reforms and reforms of economic 
institutions to allow the Egyptian people to go about their 
business just as you observed so that they can have the--they 
can have education for their children, health for their 
families--health care for their families, jobs for their 
families and a country that abides by the rule of law.
    Ms. Frankel. May I just interrupt because I have one other 
question that is very important for me to get an answer which 
is--because there's a debate about whether to continue with 
support or not.
    I personally, from what I've heard, would--I am in favor of 
continuing support. But I think there's some confusion on this 
coup clause.
    And do you favor or suggest that we change that provision? 
Is that--is that what is driving the decision of the 
administration to cut funding?
    Ambassador Jones. The decision on assistance and how we 
would--how we would--what items we would hold was driven by the 
events on the ground. It was driven by the need to send a 
message that the kind of violence that we saw in August was not 
an appropriate way to pursue the democratic pursuits of the--of 
the Egyptian people.
    What we're asking for is legislative flexibility so that we 
can continue the programs that we think are terribly important 
to assure the strengthening of the Egyptian institutions that 
we've all talked about, you in particular, that are important 
for the Egyptian people to be able to proceed with their lives 
in ways that they support and we support.
    Ms. Frankel. Mr. Chair, if maybe I could get or this 
committee could get an answer--a written answer specifically on 
whether we need to change the coup clause. That seems to be--
may be driving some of these decisions.
    Chairman Royce. We might be in consultation afterwards with 
our witnesses on this.
    Ms. Frankel. Okay. Thank you, sir.
    Chairman Royce. Good suggestion. All right. Let's go to Mr. 
Ted Poe from Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here.
    I'll talk, first of all, about the Coptic Christians. Forty 
churches bombed and burned since August, untold amount of 
damage. Has anybody been arrested? To your knowledge, has 
anybody been arrested for these crimes?
    Ambassador Jones. I'm not sure I know all the details but 
there have been some arrests. But I apologize, I don't know the 
details of how many have been arrested in each incident.
    But it is a subject that we have discussed in detail 
regularly, especially after each of these things happened with 
the Egyptian Government and we issued----
    Mr. Poe. But you're--excuse me, Ambassador. So people have 
been arrested, to your knowledge?
    Ambassador Jones. So far as I recall, yes.
    Mr. Poe. All right. Who are these people? Who--what group 
or groups are behind the 40 bombings of the churches?
    Ambassador Jones. I don't think I can give you a 
generalized answer to that question.
    Mr. Poe. Well, who are some of them?
    Ambassador Jones. Some of them are simply people who--some 
of them are just--they're simply anti-Christian. Some of them 
are--it's vendettas in communities. There are a great variety 
of reasons.
    I'm not sure I know all of--I certainly don't know all of 
them and I haven't been privy to the questioning of those who 
have been arrested.
    Mr. Poe. Is the United States helping Egypt in any way to 
find these criminals or not?
    Ambassador Jones. We have worked very hard with the police 
to provide training programs so that--so that investigations 
can be done in a professional manner and to over----
    Mr. Poe. Specifically on these bombings or generally?
    Ambassador Jones. Actually, more specifically--more 
specifically related to crimes against women but also in 
general on investigations of any crime.
    Mr. Poe. All right. Would you follow up and find out the 
answer to that first question as to how many people if any have 
been arrested in these bombings?
    Ambassador Jones. Yes, absolutely.
    Mr. Poe. All right. It's been mentioned about Hamas. Still 
not very clear on what the government's position is--the 
Egyptian Government is now on Hamas. What is their position? Is 
it cozier, less cozy?
    It's a tough choice between the government when they have 
to choose between the Muslim Brotherhood and Hamas, not two 
very outstanding groups, in my opinion. So what is their 
current relationship with Hamas and the Egyptian Government?
    Ambassador Jones. The Egyptian Government, of course, is 
closing down the tunnels that are--that is an unwelcome event 
for Hamas and Gaza. There is, I think it's safe to say, no love 
lost between the interim Egyptian Government and Hamas in Gaza.
    Mr. Poe. I've heard conflicting reports that human 
trafficking is on the increase. It's on the decrease on the 
Gaza and the Sinai. Ambassador, you should know. What is it? 
Has it increased or has it decreased?
    Ambassador Jones. I don't know in which period we're 
talking about but in general it has increased. It's a subject 
of deep concern to us. It's something that we've been talking 
with the Egyptian Government about.
    It's one of the things that will be--is addressed to some 
degree by closing the tunnels because that's how the--how the 
trafficking is undertaken.
    But we've also been talking with the Egyptian Government 
about the importance of arresting the traffickers, 
investigating them and bringing them to justice.
    Mr. Poe. Is that occurring?
    Ambassador Jones. It's not occurring to the extent that we 
would like.
    Mr. Poe. Mr. Chollet, did you want to weigh in on that? I 
see you nodding your head so I thought maybe you wanted to say 
something.
    Mr. Chollet. Just in agreement.
    Mr. Poe. All right. Be specific, if you would, Ambassador. 
What do you mean by trafficking? What is--is this human sex 
trafficking? Is it drugs? Is it guns? Is it workers? And be 
specific, if you will, on where it's going and where it's 
coming from.
    Ambassador Jones. The trafficking regrettably involves all 
of those things. It's coming across Sinai from parts of Africa, 
generally, and it's something that we have been investigating, 
documenting and bringing to the attention as much as we 
possibly can to the authorities to see if we can get the kinds 
of investigation----
    Mr. Poe. Where is it going? Excuse me. I'm just down to 30 
seconds. So it's coming across Africa. Where is it going?
    Ambassador Jones. Into Israel through Gaza.
    Mr. Chollet. Sir, one quick thing to add in the remaining 
seconds here is that's one of the reasons why one of the 
programs that we are continuing is to work with the Egyptian 
military on border security in particular because the problem 
is they've got bad things coming in to their country 
throughout, let's say, from Libya, for example, transiting 
through Sinai and ending up in Gaza.
    Mr. Poe. And some of those include guns?
    Mr. Chollet. Absolutely. Absolutely.
    Mr. Poe. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Judge Poe.
    Gerry Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. Welcome.
    Ambassador Jones, in reading your testimony I assume this 
testimony was vetted in the State Department and other councils 
of foreign policy in the United States Government.
    Ambassador Jones. Yes, it was.
    Mr. Connolly. I'm reading what I think is one of the most 
extraordinary statements I've ever read from a United States 
official. Following the historic January 2011 revolution, the 
Brotherhood's Freedom and Justice Party won parliamentary 
elections and President Morsi was voted into power in an 
election viewed as free and fair.
    I assume that statement means he was--it was a democratic 
process and he was democratically duly elected as President. Is 
that correct?
    Ambassador Jones. That was the assessment at the time, yes.
    Mr. Connolly. Thank you. No, it's the assessment today.
    Ambassador Jones. Right.
    Mr. Connolly. You made that assertion.
    Ambassador Jones. Yes.
    Mr. Connolly. Mr. Morsi, however, proved unwilling or 
unable to govern in a way that was inclusive, alienating large 
swaths of Egyptian society and the interim government that 
replaced him July 3rd responded to the desires of millions of 
Egyptians who believe the revolution had taken a wrong turn.
    Am I to understand from that that the United States 
Government is saying even if you win a free and democratic 
election if you alienate people in your governance it's okay to 
overthrow it? Because I can think of some American 
administrations that might qualify for that.
    Ambassador Jones. We assessed the situation on the ground 
on June--leading up to June 30th, July 1st as being a--because 
of the millions of Egyptians in the street we assessed that as 
demonstrating considerable discomfort and unhappiness with the 
direction that the Egyptian democratic experiment was moving 
under President Morsi.
    Mr. Connolly. Madam Ambassador, you and I are old enough to 
remember the Vietnam War protests. I participated in them.
    There were millions of Americans who went in the streets of 
this country for years protesting President Johnson, President 
Nixon and the Vietnam War policy. Under your logic, that would 
have delegitimized those two administrations.
    Ambassador Jones. Here's the way I would describe it. There 
is a difference--I think a clear difference between the 
institutions of government in the United States and the 
fledgling institutions of government in Egypt in which the 
Egyptian people could see that their--that the voice that they 
were--that they exercised in the election was no longer heard 
by Morsi who had begun to take over various elements of the 
government in ways that they did not support.
    Mr. Connolly. So let me get this straight. We favor 
democracy unless it's a fledgling government, in which case we 
have a special category, and we put them under a certain 
scrutiny and if they don't meet standards that are not explicit 
it's okay to overthrow that democratically-elected government 
even if we don't like it.
    Ambassador Jones. It's not a question of what we liked or 
didn't like. It was a question of what the Egyptian people--
what the Egyptian people felt was a wrong turn in their 
revolution. But we----
    Mr. Connolly. Madam Ambassador, based on what? Based on 
protests--street protests? Because if you're going to use that 
standard you could argue this interim government is equally 
illegitimate. Millions of people have protested this government 
and hundreds have lost their lives in the form of that protest.
    Ambassador Jones. Congressman, that's also why we've been 
so engaged and so--and have discussed though extensively with 
the interim government the importance of their getting back on 
track to a civilian-led government through a democratic 
process.
    That's why--that's why we support their roadmap but that's 
also why we have expanded on what we understand the elements of 
democracy to be and the elements that we would promote.
    Mr. Connolly. You know, Madam, I'm sorry. I'm running out 
of time. I'm also old enough and so are you to remember that 
this is precisely the logic used to overthrow the Allende 
government and to justify our support for the Pinochet 
government, and it led to years of repression in the oldest 
democracy in the Western hemisphere--in the southern part of 
the Western hemisphere.
    It led to thousands of people being killed, tortured and 
disappeared. In my view, it is not okay for the United States 
of America to say it's okay to overthrow a democratically-
elected government however fledgling and however much we 
disagree with it.
    And it's a sad day for me to sit here and see my Government 
make such a statement.
    With that, I yield back, Mr. Chairman.
    Chairman Royce. I thank the gentleman for yielding back and 
I'll just in closing go to something that Ambassador Jones made 
reference to in pointing out, I think, the IMF type reforms 
that--essentially balancing the books.
    I want to make it pretty clear that I don't think any 
economists believe that that's going to do anything to spark 
the Egyptian economy.
    I mean, that might be good governance but that's not going 
to take care of the problem in Egypt. I've raised this issue 
endlessly.
    The administration doesn't listen on this issue and I think 
that, as Madeleine Albright testified here and Hernando de 
Soto, the bottom line is until we have economic freedom in that 
country, Egypt is going to stagnate.
    You can't have--I think Cairo is probably close to 90 
percent informal. You know, it's an easy thing--it's already 
been done in the past to go through and try to affix addresses, 
set up a property registry, give people title, put something 
through so that people can start a business without having to 
pay bribes.
    This is the area that cries out. A lot of work's been done 
and never implemented by the Mubarak government, and to not 
confront that, to not wrestle with that is going to compound 
the problems in Egyptian society going forward, in my opinion.
    The other point I would make, Mr. Chollet, in response to 
my question earlier, and I know you've made some comments on 
this larger weapons systems premise including Apache 
helicopters to the sense that this is not going to harm Egypt's 
ability to confront a very growing terrorist presence in the 
Sinai, I understand your point--well, there's 20 of them out 
there.
    There's 20 that are getting a lot of wear and tear, and I 
don't know how you know that that's all that's needed in an 
environment out there where, what, they've closed 57 tunnels 
down.
    But in the meantime, al-Qaeda is very present along with a 
lot of other radical groups and we've got our own national 
security interests in seeing that the Sinai--that the anarchy 
there be quelled--that these radical organizations be pushed 
back.
    And it's the Egyptian military that's engaged in 
confronting these groups with this increased operation, which 
is clearly degrading their weaponry. I mean, they're also 
engaged up in northern, you know, Egypt with the same kind of 
challenge.
    And I would just urge the administration to reconsider its 
decision to withhold the sale of weapons systems that are going 
to be increasingly important to Egypt's ability to confront 
terrorist organizations and I think you ought to rethink that.
    But I do want to thank all our witnesses for coming and 
testifying here today and we stand adjourned.
    Thank you.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
